s

Ai

r. A

filed
DEC 3 0 2020

19-1205

S>UPREMFFrPwfD^(?.K

In the Supreme Court of the United States
ANTHONY J. LUCERO,
Petitioner,
vs.
PAUL GORDON and PAUL GORDON, LLC,
Respondents.

On Petition for Writ of Certiorari
To the 10th District Federal Appellate Court

PETITION FOR WRIT OF CERTIORARI

Anthony J. Lucero
Petitioner Pro Se
2226 Harvey Place
Pueblo, GO 81006
Tel. (719) 643-7367
E-Mail anthonypuebl@aol.com

V
••r
•V

i
QUESTIONS PRESENTED FOR REVIEW
Pursuant to Rule 14(l)(a)
1. Does the Rooker-Feldman doctrine permit this United
States Supreme Court to review state trial court documents
and judgments in this case within a case lawsuit which
alleges patently egregious violations of Plaintiffs 14th
Amendment to the Constitution due process rights by the
state trial court, and then rule in favor of Plaintiffs claims
for actual, compensatory, and continuing damages arising
from Respondents’ legal representation failures, criminal
deceptions to the courts, and illegal sham affidavit?
2. Did Respondents’ initial private-party, nongovernmental
actions become open to federal constitutional scrutiny when
the state trial court overtly encouraged and even ratified
Respondents’ actions and illegal affidavit to consequently
make Respondents state actors — with subsequent court
rulings against Plaintiff intertwined with Respondents
firmly established as state actors'?
3. Did the state and federal courts err when they should
have taken judicial notice, in this legal malpractice case, of
Plaintiffs timely, approved malpractice Certificate of Review
as well as Plaintiffs 19+ evidence submissions, including
evidence proving Respondents’ sole piece of never
substantiated “evidence” - an affidavit that was introduced
11 months after evidence deadline - was a patently sham
affidavit?
4. Did the state and federal courts err in their continued
misunderstanding that - besides a trial-court-filed, in
camera court approved, Certificate of Review - Plaintiff did
not need an outside expert witness, as referenced in both
Colorado Rule 702 and its twin, Federal Rule of Evidence
702, wherein both rules require, in part, that the expert be
qualified to "help the trier of fact of fact to understand the

11

evidence” - except that in this particular, extremely simple
legal malpractice case the trier of fact is a sitting judge, an
attorney at law, already an expert legal malpractice witness
according to case law, who had only to weigh some very
simple evidence documents from Plaintiff and one solitary
Respondent evidence proffered of a patently sham affidavit
to conclude that Respondent attorney’s legal malpractice
was plainly wrong, deceptive, grounds for disbarment and
injurious to Plaintiff on so many levels?

i

A

Ill

LIST OF ALL PARTIES
Rule 14 (l)(b)(i):
The case caption contains the list of all parties.
Petitioner is Anthony J. Lucero. Respondents are Paul
Gordon and Paul Gordon LLC.

CORPORATE DISCLOSURE STATEMENT
Rule 14(b)(ii):
In accordance with United States Supreme Court
Rule 29.6, Petitioners make the following disclosures:
Anthony J. Lucero has no parent corporation and no
publicly held companies would have any of his stock.

I

1

iv
List of all Proceedings in state and federal trial and
appellate courts that are directly related to the case
i« this Court, pursuant to Rule 14(b)(m)
The following single case was filnd hv Attorney Paul Gordon
in mv behalf:
Anthony Lucero v. James R. Koncilja & Koncilja&Koncilja,
P.C., 11CV839, Pueblo, Colorado; Decided 6 August 2012
The following cases were filed bv Anthony Lucero, pro se.
Anthony Lucero v. Paul Gordon and Paul Gordon, LLC,
13cv248, Pueblo County District Court; Judgment entered
June 3, 2015.
Anthony Lucero v. Paul Gordon and Paul Gordon, LLC,
13cv248, Pueblo County District Court;
January 30, 2016. (Relief Sought Pursuant to 60(B)(2)('J){o)Anthony Lucero v. Paul Gordon and Paul Gorton LLC
16CA0397, Colorado Court of Appeals; Decided 16 February
2017.
Anthony Lucero v. Paul Gordon and Paul Gordon, LLC
2017SC304, Colorado Supreme Court; Decided September
11, 2017
Anthony Lucero v. Paul Gordon and Paul Gordon, LLC,
l:17-cv-03142, U.S. District Court for Tenth Circuit, Decided
17 December 2018.
Anthony Lucero v. Paul Gordon, U.S. Bankruptcy Court,
Filed April 9, 2019. Court never responded.
Anthony Lucero v. Paul Gordon and Paul Gordon,^LLC,
Case No. 19-1016, U.S. Court ofAppeals. Decided 10
Circuit Federal Appellate Court decided October 1, 2019.

4

V'

V.

TABLE OF CONTENTS
Page
Questions Presented.................

1, u

List of Parties............................

m

Corporate Disclosure Statement

in

List of All Proceedings in State and Federal Courts ...

iv

Table of Contents.........................

v

Table of Authorities.....................

vi

Opinions Below............................

1

Jurisdiction..................................

1

Constitutional Provision..............

2

Statement of the Case..................

2

Reasons for Granting the Petition

11

Conclusion...................................

18

APPENDIX
United States Court of Appeals for the 10th Circuit,
decided October 1, 2019................................

la

U. S. District Court for The District of Colorado
decided: 17th day of December 2018............

6a

Pueblo County District Court
decided on January 20, 2016

22a

*:

VI

TABLE OF AUTHORITIES
Page#

CASES:
FEDERAL

Booker v. Fidelity Trust Co, 263 U.S. 413, 414 (1923)
Bridger v. Union Ry., 355 F.2d 382 (6th Cir. 1966)
District of Columbia Court of Appeals v. Feldman,
460 U.S. 462, 482 (1983)
Exxon Mobil Corp. v. Saudi Basic Indus. Corp.
[SABIC], 544 U.S. 280,125 S.Ct. 1517 (2005)
Gallagher v. Neil Young Freedom Concert,
49 F.3d 1442,1453 (10th Cir. 1995)
Kiowa Indian Tribe of Okla. v. Hoover,
150 F.3d 1163, 1169 (1998)
Lebron v. Natl, R.R. Passenger Corp.,
513 U.S. 374, 400 (1955); Terry, 345 U.S. 462-65
Mayotte v. U.S. Bank National Ass’n,
880 F.3d 1169, 1173 (10* Cir. 2018)
COLORADO
Bob Blake Builders, Inc. v. Gramling,
18 P.3d 859 (Cok). App. 2008)

.•J

Dinosaur Park Investments, LLC v. Tello,
192 P.3d 513 (Colo. App. 2008)
Ginter v. Palmer & Co., Colo. App. 585
P.2d 583 (1978)

Vll

Millenson v. Dept, of Highways, 41 Colo. App.
460, 690 P.2d 979 (1978)
USA Leasing Inc. v. Montelongo, 25 P.3d 1277
(Colo. App. 2001),
Town of Carbondale v. GSS Properties, LLC,
169 P.3d 676 (Colo. 2007)
Tri-State Generation & Transmission Co. v. City of
Thornton, 647 P.2d 670 (Colo. 1982) (fii. 12)
ILLINOIS
Schmidt v. Hinshaw, Culbertson, Hoelmann,
Hoban & Fuller, 75 Ill. App. 3d. 616, 31 Ill Dec.
367, 394 N.E. 2d 659 (1979).
CONSTITUTION PROVISION & Page 2
U.S. Constitution, Article VI [Sec. 2]
U.S. Constitution, Amendment V
U.S. Constitution, Amendment XIV
RULES:
Fed. R. Civ. P. Rule 56(h)
Colorado Rule 702
Federal Rule of Evidence 702
STATUTES:

v

viii

C.R.S. §18-8-508 (2014)
C.R.S. 13-30-602
FEDERAL
28 U.S.C. § 1331
28 U.S.C. § 1257
42 U.S.C. § 1983
COLORADO
C.R.C.P. § 13-20-602(l)(a)

i

s
V

*

1
OPINIONS BELOW
The October 1, 2019 opinion of the United States Court
of Appeals for the 10* Circuit that gives rise to this Petition
is reprinted in the Appendix at page la.
United States District Court for The District of
Colorado decided: 17th day of December 2018 in the Appendix
at page
Pueblo County District Court decided on January 20,
2016 reprinted in the Appendix at page

JURISDICTION
The jurisdiction of this Court is invoked pursuant to 42
U.S.C. § 1983.
Federal review of state court judgments can be
obtained only in the United States Supreme Court. 28 U.S.C.
§ 1257.
U.S. Court of Appeals, 10th Circuit Federal Appellate
Court issued its decision on October 1, 2019. This Petition
was filed within 90 days of that decision. Then, upon request,
the Clerk of the U.S. Supreme Court allowed Petitioner an
additional 60 days from that date to make any necessary
corrections and additions. This Petition has been timely filed
within those 60 days. The $300 filing fee has already been
paid.

I

2

CONSTITUTIONAL PROVISION
Due process clauses within the 5th and the 14th
Amendments to The Constitution of the United States.
Article VI, Section II of the United States Constitution,
known as the “Supremacy Clause” as it provides that
the "Constitution, and the Laws of the United States ... shall
be the supreme Law of the Land."

STATEMENT OF THE CASE
This is a personal injury case which historically
includes two legal malpractice cases, one of which, Petitioner
Anthony J. Lucero v. Respondent Paul Gordon, is here before
you. The other legal malpractice case: Petitioner Anthony J.
Lucero v. Respondent James R. Koncilja; Koncilja & Koncilja,
P.C. is within this Court as No. 19-918. Both separate legal
cases arose from Plaintiffs attempts to receive due process
justice and compensation for his near-death work-related
injuries in fact — some of which persist to this day. The
abysmal failures of the first attorney, (hereinafter referenced
as “Koncilja”) to prosecute a civil case against the parties that
caused my injuries and then the subsequent failures of
Respondent attorney Paul Gordon to prosecute a malpractice
case against Koncilja necessitated Plaintiffs efforts to
proceed pro se in all subsequent legal actions

3

against attorney Koncilja and Respondent Gordon for the past
decade. Blatant state district court errors and bias have also
played a significant role in deprivation of justice for
Petitioner.
Within my initial work-injury and then legal
malpractice cases, neither attorney did any depositions, no
interrogatories, no discovery; neither attorney met directly
with me about my legal options or advised me of my case
status. They were both late in filing or ignored necessary
details like court rules and filing deadlines; both violated
state and federal codes of attorney ethics, and both bed to the
Colorado Supreme Court Attorney Regulatory Council about
my documented complaints against them. And, while both
attorneys in this civil case committed intrinsic fraud, fraud in
factum, and collateral fraud - this case at hand, which could
be considered as the case-within-a-case is focused solely on
the civil actions and crimes of attorney Paul Gordon of
Denver, Colorado. The previously referenced case against
attorney James R. Koncilja is within this Court.
How did we all come to this point? Never in my 22 years
of military service in the U.S. Marines and Colorado National
Guard have I ever experienced such trauma, such costly,
irresponsible behavior as I have from attorneys after my work
injuries.
The following is my Statement of the Case:
Plaintiffs near-death injuries occurred at the
Wyndham Hotel & Resort in Colorado Springs, CO, on
November 18, 2006, where Plaintiff Lucero worked as an

4
“Engineer F. Construction workers from Vertical Excellence,
Inc. had foiled to block off and post warnings in front of an
open elevator they were using to move materials. For many
months Wyndham had foiled to get any required work
permits or have any safety protocols or caution signs during
that construction remodeling period.

■ i

‘

*

While working at the Wyndham Hotel that feteful day
of November 18, 2006, Petitioner fell 12 - 18 feet into an
unguarded, open elevator shaft and landed on the myriad
steel apparatus atop the elevator below. As a result of that
fall at an approximate rate of 34 m.p.h., Plaintiff Lucero
suffered many life-threatening internal and external injuries,
was placed in an induced coma for three days during initial
treatments at Penrose/St. Mary Hospital in Colorado,
Springs. All the corporations that were culpable for his
injuries are quite large, profitable, and insured. Neither
attorney James Koncilja nor Attorney Paul Gordon did, or
had done, any investigation of the accident scene, nor did they
interview or depose any of those blameworthy.
Lucero hired Respondent attorney Gordon to
investigate and prosecute a legal malpractice case against
James Koncilja because Koncilja procrastinated until one day
shy of two years to file an inadequate complaint in the wrong
county, wrong defendants, did absolutely no investigation of
the accident, took no pictures, no interrogatories or
depositions of known witnesses, no communication with
Plaintiff and failed to file or respond to case defendant
motions and court orders. Consequently, Lucero’s case was
dismissed by a Pueblo District Court for failure of Koncilja to
prosecute.

-Y-' • -

5
Petitioner called Denver attorney Paul Gordon
regarding this legal case. They spoke for about 15 minutes
that Saturday, December 3, 2011, and Gordon agreed to take
Lucero’s case. That was the only time that Lucero was able
to speak with Gordon over the phone, during which time and
thereafter Gordon never told Lucero about a Certificate of
Review nor any other matter, including money, contingency
or his cost to prosecute.
On Monday, December 5,2011, Petitioner Lucero drove
to Denver and delivered all his Kondlja legal documents to
Respondent’s paralegal, Tammy Hanks, about 9:30 a.m.
Respondent was not at his office at that time. Just four days
later Respondent filed my initial Complaint against James
Kondlja and Kondlja & Kondlja, P.C. on Wednesday,
December 7, 2011 - without sending Petitioner Lucero a copy
of that filing.
Respondent and Petitioner’s very next communication
was another email from Gordon on February 9, 2012,
containing an 8-page Contingent Fee Agreement. (Exhibit 2
in my Pueblo District Court case against Respondent).
Neither that Agreement nor any other document or email ever
sent by Respondent mentioned a Certificate of Review. The
time period between Gordon’s Complaint filing and service of
process on 12/07/11 to February 9, 2012, was already 69 days.
C.R.C.P. § 13-20-602(l)(a) says, “...the plaintiffs or
complainant's attorney shall file with the court a certificate of
review for each acupuncturist or licensed professional named
as a party, as specified in subsection (3) of this section,
within 60 days after the service of the complaint....” (bold
added). Therefore, the 60-day deadline for filing such
certificate was already nine days too late to

6
file. But I, a layman, was not told nor did I know anything
about a certificate of review, court rules, caselaw, statues or
attorney rules of professional conduct - at the time.
Counsel for Koncilja filed a Motion for Order to Dismiss
for Failure to file a Certificate of Review. My attorney,
Respondent Gordon, filed a Request for Order to Compel
Certificate. Respondent argued and wrote to the court that he
believed he didn’t have to file a Certificate unless ordered to
do so. On August 6, 2012, Judge Swartz’s order dismissed
Plaintiff Lucero’s case against Koncilja because Respondent
Gordon had failed “...to file a certificate of review ...”

- • ti

Lucero received a copy of that ruling, and this was the
very firat. fcima Petitioner had ever heard or read about a
certificate of review. Respondent followed the same weak
argument of needing to be ordered to file a certificate of review
into the Colorado Court of Appeals. (It is pertinent to know
that in Respondent’s email of 09/08/12 [submitted within my
Dist. Ct. as Exhibit 9] he said he’d "... go forward [to the
appellate court] if [I] would pay the filing fee of $470”, even
though I later discovered the actual fee was only $223 submitted as additional evidence that Respondent does
frequently deceive. Since Respondent refused to continue,
Petitioner’s desire to receive his day in court for Kondlja’s
legal malpractice inspired Petitioner to continue Gordon’s
filings by fifing himself, pro se, in the Colorado Supreme
Court, though Petitioner Lucero had never before filed any
legal action.

7

Petitioner then picked up all of his own legal
documents that Respondent Gordon possessed, including
Konciljas’ documents that he’d dropped off. Later, On
December 11, 2013. Petitioner Lucero filed and served
Respondent Gordon with the initial case at hand On
February 7, 2014, Petitioner filed a Certificate of Review in
court and, the Pueblo District Court completed and approved
an in-camera review of that Certificate of Review. That
certificate was written by a prominent legal expert with thirty
years’ experience as an attorney.
Respondent and Petitioner had an attorney-client
relationship (though Respondent never gave advice and only
communicated by email — refusing to meet or talk on the
phone). Respondent also owed Petitioner a legal Duty of Care,
about which he failed, and Respondent should have known
that a Certificate of Review is almost always necessary in a
legal malpractice lawsuit.
Respondent never once presented any defensive
evidence to the court in this entire case at hand of Lucero v.
Gordon', no emails, no letters, no meetings notes nor phone
call records. For months Respondent presented no defensive
evidence, failed to respond to my discovery requests, but then,
months later Respondent filed a Motion for Summary
Judgment accompanied by an affidavit. However, pursuant
to C.R.C.P. 66 (h) — it was an affidavit submitted in bad faithit was a sham affidavit which contained at least three blatant
lies. Respondent’s “affidavit,” was submitted in Pueblo
District Court Case 13cv248,10 months too late1

1 Dinosaur Park Investments, LLC v. Telia, 192 P.8d 618 (Colo.
App. 2008); Bob Blake Builders, Inc. v. Gramling, 18 P.3d 869
(Colo. App. 2008)

8

after Petitioner served Respondents with a Complaint.
Gordon’s law partner and defense attorney Stephen
McWhirter, told Lucero, “Now we have an issue.” Petitioner
responded with a motion to dismiss Respondent’s motion and
aham affidavit. (USA Leasing Inc. v. Montelongo, 25 P.3d 1277
(Colo. App. 2001), (Ginter v. Palmer & Co., Colo. App. 585 P.2d
583 (1978), and Pueblo District Judge Reyes ruled against
Respondent’s motion and affidavit, saying Respondent’s
affidavit could not he used, but the court erred by not ruling
that Gordon’s affidavit, filed 10 months was too late, should
have been barred altogether: Even if his affidavit wasnt
perjured the Colorado Supreme Court ruled that an
“affirmative defense” cannot be presented for the first time in
a motion for summary judgment. . Relevant State Actor
status discussed later
Petitioner had submitted to the trial court 23 emails
between Petitioner and Respondent, including document
information about the corporations that had been culpable for
Lucero’s life threatening injuries in fact; evidence of
culpability; medical and video documents about Lucero s
extensive injuries from the Wyndham Hotel accident and
many financial documents regarding attorney James
Koncilja. That is, Petitioner showed the state trial court that
attorney James Koncilja could have won the initial personal
injury case against Wyndham Hotel and their contractors,
and that that after Koncilja’s neglect and failure to prosecute,
Respondent himself could have won a legal malpractice case
against Koncilja, who had sufficient funds to pay a judgment.
Petitioner proved to Respondent that Konciljas, while not
having legal malpractice insurance, were - according to all
property and financial records -

i

9
owners of buildings and numerous properties within Pueblo
worth millions of dollars. They self-insured for their legal
malpractice. Had Kondljas, subsequent to Petitioner’s
lawsuit, sold or placed assets in trust, any judgment against
Kondljas would have been retroactive to the earlier time.
Emboldened by the trial court not dismissing his case
for filing a defensive affidavit too late, Respondent filed
another Motion for Summary Judgment, with the exact same
lies within his sham affidavit submission, shortly after Judge
Kim Kam replaced retiring Judge Victor Reyes. Again,
Respondent submitted absolutely no evidence to support his
sham affidavit, i.e., no copies of letters, emails, notes from
phone calls nor meetings.
Petitioner then filed a seven-page Motion in Limine to
Preclude Defendants’ Affidavit, and suggested that if
Respondent recanted his affidavit lies, he wouldn’t be
prosecuted for perjury, pursuant to C.R.S. §18-8-508 (2014).
Judge Kara ruled that Respondent’s affidavit couldn’t be
submitted again without a court order. At the same time, the
court agreed with Respondent that Petitioner, who had
already submitted a Certificate of Review that passed an in­
camera review was also required to disclose an expert
witness. Petitioner tried very hard, but only found one
attorney who wanted $22,000 to be an expert witness.
Therefore, since Respondent had no evidence at all, save for a
sham affidavit, and Petitioner had many evidence documents
that were easy to understand, Petitioner Lucero found many
cases that showed that Judge Kara, as an experienced
attorney, could be the expert as there were not difficult issues
beyond law and evidence, including no

10
technical medical or business issues. Case law frequently
states that where the trial court is sitting as a finder of fact
in a legal malpractice case, the sitting judge is capable of
drawing its own “inferences from the record” and “need not
admit expert testimony on a matter that it is capable of
resolving without such testimony.” See C.R.E. 702 Testimony
by Experts. (Millenson v. Dept, of Highways, 41 Colo. App.
460, 590 P.2d 979 (1978).
However, Petitioner persisted, filed a third Motion for
Summary Judgment, with his same sham affidavit. The trial
court violated its own previous ruling and allowed
Respondent’s motion and “affidavit,” with no other supporting
documentation to justify her ruling.
Because retiring Judge Reves gave advice_to
Respondents in open court about what Colorado state rule
they could use and at what time to file, Respondents were
being encouraged, moved, nudged toward being State Actors.
Similarly, subsequent state trial court Judge Karn further
nudged Petitioners toward the role of State Actors by not
ruling in favor of Petitioner’s numerous motions to disallow
Respondents’ sham affidavit - that was filed 10 months after
the deadline - and disobeying her own order to not allow
Respondent’s affidavit without a prior motion, and not ruling
for Petitioner’s motion that she, herself can be the expert
witness since it involves no concepts outside of Colorado court
rules and law, and there is substantial caselaw to support
that ruling, e.g., “State action is ... present if a private
party is a willful participant in joint action with the State or
its agents.” Gallagher v. Neil Young Freedom Concert, 49 F.3d
1442,1453 (10* Cir. 1995). (Bold added).

11
Subsequent filings in state and federal courts
continued to err on the side of Respondents, always on
procedural, never on substantive grounds. The state court
wrongfully entered its judgment!
Even 10th District Federal District Court Judge
Martinez was confused, only giving a cursory look at the facts,
following previous errors by writing several times that
Petitioner failed to file a Certificate of Review, when that was
patently not true, as Petitioner not only filed before the 60
day time limit, a Certificate of Review from an renowned
attorney that was approved by Pueblo District Court Judge
Crockenberg on March 17, 2014, writing, “The Court has
reviewed the document submitted by the Plaintiff and finds
that it does comply with C.R.S. 13-30-602 ”

REASONS FOR GRANTING THE PETITION
I. Rooker-Feldman doctrine permits this United States
Supreme Court to review state trial court documents
and judgments in this case within a case lawsuit which
alleges patently egregious violations of Plaintiffs 14th
Amendment to the Constitution, due process rights by
the state trial court, and then return this case to the
lower court to rule in favor of Plaintiffs claims for
actual, compensatory, and continuing damages arising
from Respondents' legal representation failures,
criminal deceptions to the courts, and illegal sham

affidavit?

12
It’s appropriate for this United States Supreme Court
to decide this case at hand, with its multiple parts, pursuant
to Booker v. Fidelity Trust Co, 263 U.S. 413, 414 (1923),
District of Columbia Court of Appeals v. Feldman, 460 U.S.
462, 482 (1983). See also, Kiowa Indian Tribe of Okla. v.
Hoover, 160 F.3d 1163, 1169 (1998). As a rule, federal review
of state court judgments can be obtained only in the United
States Supreme Court. 28 U.S.C. § 1267; Mayotte v. U.S. Bank
National Ass’n, 880 F.3d 1169, 1173 (10th Cir. 2018); and
Kiowa Indian Tribe supra at 1169.
There is a Rooker-Feldman issue if the federal suit
alleged that a defect in the state proceedings invalidated the
state judgment, i.e., repeated violations of due process or
equal protection rights by the state court. Cases governed by
Rooker-Feldman involved complaints “seeking review and
rejection of a state court judgment.” See Exxon Mobil Corp. v.
Saudi Basic Indus. Corp. [SABIC], 644 U.S. 280, 126 S.Ct.
1517 (2006). The state court wrongfully entered its judgments
that Petitioner herein protests, by the lower courts’ ignoring
evidence documents, court filings, and Petitioner’s due
process rights.
This Petition for Writ of Certiorari is a Rooker-Feldman
issue as Petitioner is alleging that defects in the state
proceedings invalidated the state judgment. Plain Error
violations of my 5th and 14th Amendment due process rights
give rise to these issues that Petitioner prays that this Court
recognizes.

II.
Did
Respondents’
initial
private-party,
nongovernmental actions become open to federal
r “

13
constitutional scrutiny when the state trial court
overtly encouraged and even ratified Respondents’
actions and illegal affidavit to consequently make
Respondents state acton - with subsequent court
with
intertwined
Plaintiff
against
rulings
Respondents firmly established as state acton?
As frequently referenced in caselaw, to distinguish
between the four categories of State Actors, one must ask two
questions: Whether the actor is governmental or
nongovernmental and whether the actor is acting in a public
or private capacity. [Santo Clara Law Review, Vol. 51. No. 3,
Article 4. Making Sense of State Action] In this instance, fer
reasons that follow, Respondents can be placed in category (3)
nongovernmental entities, e.g., in this instance a non­
governmental attorney (or attorneys) acting in a public
capacity. The outcomes of the Supreme Court case law
demonstrate that the actors in the first two categories are
state (public) actors, meaning that their actions are state
actions subject to constitutional scrutiny. See e.g. Lebron v.
Nat1 R.R. Passenger Corp., 513 U.S. 374, 400 (1955); Terry,
345 U.S. 462-65.
Analysis of Supreme Court decisions points to a
spectrum of relationships between the state and a private
party/action. On this spectrum, the state might mandate a
private action, encourage it, permit it, discourage it, or
prohibit it. Here, where the private actions of Respondents
were undertaken by the state, that would be an
unconstitutional deprivation of the rights of Petitioner. In
this instant case, on that spectrum, the state (court) has not
only permitted actions by Respondents that are harmful to
Petitioner but has also authorized and even encouraged state
violations by Respondent. That cooperation and
encouragement between the state and private party
Respondent Gordon has created a symbiotic relationship

S'

14
that has deprived Petitioner of his due process rights to a fair
hearing and trial.
How can the above analysis make that conclusion? One
example: retiring Judge Victor Reyes, with Petitioner
listening, suggested to Respondent and his attorney, Stephen
McWhirter, after denying their motion for summary
judgment with the sham affidavit, that they could file a
motion for directed verdict during a trial. That was wrong and
did directly align Respondent with the state action, making
them State Actors.
Later, new Judge Kim Kara also denied Respondent
Gordon’s second motion for summary judgment that was
submitted without any evidence at all. However, she also
wrote in her opinion that their affidavit could not be
submitted a third time without a court order. By not ruling
that Respondent could be held in contempt of court for filing
a sham affidavit, Judge Kara allowed, even encouraged
Respondent to submit a third time. This aligned Respondent
with the state courts and allowed them to be State Actors. In
fact, with their third copy of a motion for summary judgment
- without any changes from the first, Judge Kara accepted
Respondent’s third exact motion with the same sham affidavit
- without a required court order— still with no other evidence
besides that which was created out of thin air sham affidavit,
making Respondent definitely a state actor.

^.*1.

i .

III. Whether the state and federal courts erred when
they should have taken judicial notice, in this legal
malpractice case, of Plaintiffs timely, approved legal
malpractice Certificate of Review as well as PlaintifPs
19+ evidence submissions, including evidence proving
Respondents' sole piece of never substantiated
“evidence” - an affidavit that was introduced 10
months after evidence deadline, which was a patently
sham affidavit?

15
Petitioner believes that much of the above question has
already been addressed, so the question may seem redundant.
Perhaps, what underlays that question are the broken rules
of professional conduct relating to attorneys - that I have read
over the years - where in this instance two or more attorneys
and judges have neglected those rules and responsibilities to
their clients, the public, and to those who depend upon judges
to follow their own judicial rules, the United States
Constitution and its amendments, case law and general rules
of honesty and respect for higher powers.
It bears reintroducing the state case law that precludes
the presentation of an “affirmative defense” for the first time
in a summary judgment. So Respondent made two errors presentation of his only evidence for the first time 10 months
late and also in a motion for summary judgment. Gordon had
already waived that defense, but the Colorado courts allowed
those illegal actions. If you were accused of some crime or
legal error, would you not put forward that defense as soon as
possible? And not ten months later? Would you not also offer
evidence that proved you actually had an affirmative defense?
That your affidavit was credible? In this instance, Respondent
went through the entire Colorado judicial system and two
federal courts with one false, perjured affidavit and no
supporting evidence!
IV. Whether the state and federal courts erred in their
continued misunderstanding that - besides a trialcourt-filed, in camera court approved, Certificate of
Review - Plaintiff did not need an outside expert
witness, as referenced in both Colorado Rule 702 and
its twin, Federal Rule of Evidence 702, wherein both
rules require, in part, that the expert be qualified to “help
the trier of fact of fact to understand the evidence? except that in this particular, extremely

16
simple legal malpractice case the trier of fact is a
sitting judge, an attorney at law, already an expert
legal malpractice witness according to case law, who
had only to weigh some very simple evidence
documents from Plaintiff and one solitary Respondent
evidence proffered of a patently sham affidavit to
conclude that Respondent attorney’s legal malpractice
was plainly wrong, deceptive, grounds for disbarment
and injurious to Plaintiff on so many levels?

•!

My reading has shown that most states do not require
expert witnesses in a legal malpractice case. They allow it if
a party wants to introduce an expert, but generally experts
are saved for cases that are outside the knowledge of judges.
For example, the Kansas Law Review, vol. 40, p. 328 B.
specified that The Federal Rules of Evidence 702 specify that
expert witness testimony is not needed unless the issue to
which the testimony would be directed was “not within the
common knowledge of the average layman. (Bridger v. Union
Ry., 355 F.2d 382 (6th Cir. 1966). Additionally, Rule 702 allows
expert testimony if it will aid the trier of fact understand the
___
issues at bar. {Opinion and Expert Evidence Under the
Federal Rules, Herman E. Gamer, 36 La. L. Rev. 123, at 128).
(Emphasis added.)
“Here, however, the trial court served as the trier of
fact. Because the proffered testimony concerned matters of
legal practice, the trial court was in a particularly appropriate
position to assess whether such testimony would be helpful in
its deliberations. We, therefore, conclude that the trial court’s
exclusion of the testimony did not constitute an abuse of
discretion. See Tri-State Generation &

!

17
Transmission Co. v. City of Thornton, 647 P.2d 670 (Colo.
1982) (fa. 12).
As already stated, in Respondents’: Defendants*
Renewed Motion for Summary Judgment and also in the
Affidavit of Paul Gordon there are consistent lies that are all
proven by the large amount of evidence that Petitioner
submitted. All my evidence, emails, legal complaints,
Colorado Supreme Court Regulatory Council, and others
point to the fact that Respondent consistently lied. He made
up things that were never true. He had no evidence of any
sort, not any evidence. His single “evidence”, his repeatedly
submitted sham affidavit could not be corroborated in any
respect and sentences #*8 3, 4, and 7 were outright lies. He
could corroborate nothing. He didn’t even bother to make up
times that he might have called me or written.
The reiterated point is that there is a time bar for
submission of evidence. He missed that by 10 months and
even though I objected repeatedly that it was far too late to
introduce his first evidence, but the trial court allowed it.
Why? Did they not want an attorney to go to prison for fraud
before the court? Possibly. Nevertheless, Respondent
Gordon’s actions were a total dereliction of duty that was so
palpable as to be apparent without the presentation of expert
witness testimony on deviation — from accepted professional
standards. Schmidt v. ffinshaw, Culbertson, Hoelmann,
Hoban & Fuller, 75 Ill. App. 3d. 516, 31 Ill Dec. 357, 394 N.E.
2d 559 (1979).

!

18

CONCLUSION and PRAYER FOR RELIEF
Plain error: The Colorado state and appellate courts
have committed plain error, i.e., errors that are so obvious,
substantial, and prejudicial that failure of the United States
Supreme Court to correct it would infringe Petitioner’s dueprocess rights and damage the integrity of the judicial
process.
I, Petitioner, do pray that this U.S. Supreme Court
recognize the travesty, the miscarriages of justice that has
occurred since my near-death injuries of November 18, 2006,
and rule to overturn the lower court decisions, reprimand the
judges that have allowed these errors to continue for so many
years.

4

I can go no further. I have put years of my life into these
legal matters, and my wife thinks my efforts are futile.
Nevertheless, I have tried, and as a Marine, I was taught to
always get up when you fall. Keep trying. I still have serious
disabilities from my near-death internal and external
injuries. I pray for relief.
Respectfully submitted,

r

Anthony J. Lucero,
Petitioner Pro Se
2226 Harvey Place
Pueblo, CO 81006
Tel. (719) 543-7367
E-Mail anthonypuebl@aol.com

17

